                                                                             Report No. DODIG-2014-112



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 16, 2014




                     Delinquent Medical Service
                     Accounts at William Beaumont
                     Army Medical Center Need
                     Additional Management Oversight




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Delinquent Medical Service Accounts at
                                William Beaumont Army Medical Center Need
                                Additional Management Oversight


September 16, 2014                                Finding (cont’d)

Objective                                         As a result, WBAMC UBO management missed opportunities
                                                  to collect $337,752 in delinquent payments due on the
Our objective was to determine whether            highest-dollar accounts. Unless WBAMC UBO management
William Beaumont Army Medical Center              improves collection efforts and takes prompt and aggressive
(WBAMC) properly managed delinquent               actions to collect the delinquent debt from the MSAs reviewed,
accounts more than 180 days delinquent            including $331,794 worth of other delinquent MSAs, WBAMC
(unpaid) by transferring the debt to the          UBO will continue to experience rising delinquent balances for
appropriate debt collection agency or by          future MSAs. WBAMC UBO took corrective actions such as
actively pursuing collection. This is the         transferring claims, contacting patients on some of the claims
second in a series of reports concerning          in our sample, and performing an internal review.
delinquent medical service accounts (MSAs).
This report provides the results of our review
performed at WBAMC. We reviewed the               Recommendations
25 highest-dollar delinquent MSAs valued          We recommend the Commander, WBAMC, upon completion
at $525,209.                                      of the internal review, provide the results of the internal
                                                  review, planned corrective actions, and collection efforts for the

Finding                                           remaining open delinquent medical service accounts. We also
                                                  recommend the Commander, WBAMC, provide annual training
WBAMC Uniform Business Office (UBO)               to staff on MSA guidance, and establish procedures to validate
management did not effectively manage             that staff collect accurate and complete demographic and billing
delinquent MSAs. As of May 29, 2013,              patient information before patient discharge.
1,688 of WBAMC MSAs, valued at $857,003,
were more than 180 days delinquent. Of the
accounts reviewed, WBAMC UBO management           Management Comments
did not transfer any of the accounts to the       Comments from the Chief of Staff, U.S. Army Medical Command
U.S. Treasury for collection after the accounts   addressed all specifics of the recommendations. We request
were more than 180 days delinquent. Further,      that the Chief of Staff, U.S. Army Medical Command provide
WBAMC UBO management did not actively             additional comments on the potential monetary benefits in
pursue collection for 20 of the delinquent        response to this report by October 16. 2014. Please see the
MSAs, valued at $455,775. This occurred           Recommendations Table on the back of this page.
because, among other reasons, WBAMC UBO
management did not have a system in place
to monitor and notify staff of MSAs
needing followup.




Visit us at www.dodig.mil


                                                                      DODIG-2014-112 (Project No. D2014-D000CL-0089.000) │ i
           Recommendations Table
                                                               Recommendations       No Additional
                                  Management                   Requiring Comment   Comments Required
             Commander, William Beaumont Army Medical Center                       1, 2, 3, 4, 5




ii │ DODIG-2014-112 (Project No. D2014-D000CL-0089.000)
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                            September 16, 2014

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	Delinquent Medical Service Accounts at William Beaumont Army Medical Center
          Need Additional Management Oversight (Report No. DODIG-2014-112)

We are providing this report for review and comment. We considered management comments
on a draft of this report when preparing the final report. William Beaumont Army Medical
Center Uniform Business Office management did not effectively manage delinquent medical
service accounts. Unless William Beaumont Army Medical Center Uniform Business Office
management acts to collect $669,546 in delinquent debt and improves its collection process,
they will continue to incur rising delinquent balances for future medical service accounts.

DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments from
the Chief of Staff, U.S. Army Medical Command, addressed all specifics of the recommendations,
and we do not require additional comments. We request additional comments from the Chief
of Staff, U.S. Army Medical Command, on the potential monetary benefits. We should receive
your comments by October 16, 2014.

Please send a PDF file containing your comments to audcmp@dodig.mil. Copies of your comments
must have the actual signature of the authorizing official for your organization. We cannot
accept the /Signed/ symbol in place of the actual signature. If you arrange to send classified
comments electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to James Degaraff
at (757) 989-1233.




                                    Amy J. Frontz
                                    Principal Assistant Inspector General
                                     for Auditing




                                                                                        DODIG-2014-112│ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Criteria ___________________________________________________________________________________________2
                  Review of Internal Controls_____________________________________________________________________3

                  Finding. William Beaumont Army Medical Center
                  Did Not Effectively Manage Delinquent Medical
                  Service Accounts______________________________________________________________________4
                  Management of Delinquent Medical Service Accounts Needs Improvement________________5
                  System Needed to Manage and Prioritize Delinquent Medical Service Accounts___________6
                  Uniform Business Office Chief Unaware of U.S. Army Medical Command
                      FedDebt Guidance___________________________________________________________________________7
                  Patient Data Needed Before Discharge ________________________________________________________8
                  Installment Payments Contrary to DoD Regulation___________________________________________9
                  FedDebt Administrative Wage Garnishment Tool ___________________________________________ 10
                  Management Corrective Actions Taken______________________________________________________ 11
                  Conclusion______________________________________________________________________________________ 12
                  Recommendations, Management Comments, and Our Response__________________________ 12
                  Management Comments on the Internal Controls and Our Response_____________________ 15
                  Management Comments on Potential Monetary Benefits and Our Response_____________ 15

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 17
                      Review of Documentation and Interviews_______________________________________________ 17
                      Use of Computer-Processed Data _______________________________________________________ 18
                      Use of Technical Assistance_______________________________________________________________ 19
                      Prior Coverage _ ___________________________________________________________________________ 19
                  Appendix B. Potential Breach of Personally Identifiable Information and Protected
                     Health Information________________________________________________________________________ 20
                  Appendix C. Results of the 25 Medical Service Accounts Reviewed_______________________ 22
                  Appendix D. Potential Monetary Benefits Table_ ___________________________________________ 23


iv │ DODIG-2014-112
Contents (cont’d)
Management Comments
U.S. Army Medical Command_________________________________________________________________ 24

Acronyms and Abbreviations______________________________________________ 28




                                                                                                DODIG-2014-112│ v
                                                                                                                                Introduction




Introduction
Objective
Our objective was to determine whether William Beaumont Army Medical Center
(WBAMC) properly managed accounts more than 180 days delinquent (unpaid)
by transferring the debt to the appropriate debt collection agency or by actively
pursuing collection.

We plan to issue a series of reports on delinquent medical service accounts (MSAs)
at selected military medical treatment facilities (MTFs). This is the second in the
series of reports and provides the results of our review of MSAs at WBAMC. The
first report, Report No. DODIG-2014-101, provided the results of our review of MSAs
at Brooke Army Medical Center. See Appendix A for the scope and methodology and
prior coverage related to the audit objective. During the audit, we also identified
a potential breach of personally identifiable information and protected health
information unrelated to the announced objective. See Appendix B for details.


Background
William Beaumont Army Medical Center
WBAMC is located in El Paso, Texas. According to the center’s website, their mission
is to deliver comprehensive, high quality and preventative services to warriors
in transition, soldiers, family members, and patients entrusted to them. WBAMC
specializes in complete medical care, hosts a medical education program, and serves
as a trauma center for the surrounding community. WBAMC uses the MSA function
to record the billing and collecting of funds for medical and dental services from
Uniformed Services1 beneficiaries, civilian emergency patients, and other patients
authorized treatment at the center. MSA activities include the primary-payer billing
of individuals and other Government agencies for services rendered in military MTFs.


U.S. Army Medical Command
U.S. Army Medical Command (MEDCOM) oversees all Army-fixed hospitals both
inside and outside of the U.S., including WBAMC. According to its website,
MEDCOM currently manages a $13 billion budget and cares for more than
3.95 million beneficiaries including active-duty members of all Military Services,
retirees, and their family members.

	1	
      The Uniformed Services include: Army, Marine Corps, Navy, Air Force, Coast Guard, Public Health Service, and National
      Oceanic and Atmospheric Administration.



                                                                                                                              DODIG-2014-112│ 1
Introduction




                 Criteria
                 Public Law 104-134, Section 31001, “Debt Collection
                 Improvement Act of 1996”
                 The purpose of Public Law 104-134, Section 31001, “The Debt Collection
                 Improvement Act of 1996,” is to maximize collections of delinquent debts owed to
                 the Government by ensuring quick action to enforce recovery of debts and the use
                 of all appropriate collection tools. The law also ensures that debtors (people who
                 owe money) have all appropriate due process rights, including the ability to verify,
                 challenge, and compromise claims, and access to administrative appeals procedures
                 which are both reasonable and protect the interests of the U.S. The law aims to
                 minimize the costs of debt collection by consolidating related functions and activities.
                 Further, the law2 establishes that if a nontax debt or claim owed to the U.S. has been
                 delinquent more than 180 days, the head of the executive agency that administers
                 the program that gave rise to the debt or claim shall transfer the debt or claim to the
                 Secretary of the Treasury.

                 DoD Financial Management Regulation
                 “Management and Collection of Individual Debt,”
                 Volume 5, Chapter 28
                 DoD Financial Management Regulation (DoD FMR), “Management and Collection
                 of Individual Debt,” volume 5, chapter 28, requires DoD Components to establish
                 and maintain a debt management program to identify, recover, and collect debts
                 individuals owe to the U.S. The DoD FMR states that DoD Components shall
                 take prompt and aggressive action to recover and collect debts owed to DoD and
                 shall pursue continuing followup actions, as necessary, to ensure that debts
                 are collected. The DoD FMR also identifies that, except when a debtor can prove
                 financial hardship or another reasonable cause exists, installment plans shall be
                 at least $50 each month and shall be sufficient to liquidate a debt within 3 years
                 or less. DoD is required to refer individual debt that has been delinquent for 180 days
                 to Financial Management Services, Department of Treasury for continued collection
                 action in accordance with section 3711, title 31, United States Code.


                 DoD 6010.15-M “Military Treatment Facility Uniform Business
                 Office Manual”
                 DoD 6010.15-M, “Military Treatment Facility Uniform Business Office (UBO) Manual,”
                 November 2006, provides guidelines for military MTF business office operation.


                 	2	
                       Now codified, in part, in section 3711, title 31, United States Code, “Collection and Compromise.”



2 │ DODIG-2014-112
                                                                                         Introduction



It recommends uniform procedures and accounting systems for the management
and followup of accounts. The manual incorporates procedures for third party
collection activities, including identification of beneficiaries who have other
health insurance, coordination of benefits, and recovery of claims. It also outlines
methods of settling outstanding accounts receivable and transferring delinquent
accounts. The manual states that a military MTF shall charge civilian patients who
are not eligible beneficiaries a reasonable charge, as determined by the Secretary
of Defense, for trauma and other medical care. The military MTF then shall retain
and use the amounts collected for administrative, operating, and equipment costs;
readiness training; or trauma consortium activities.


U.S. Army Medical Command FedDebt Program Standard
Operating Procedures, May 2013
The MEDCOM FedDebt Program Standard Operating Procedures (SOP) provides
guidance for UBO managers or designated representatives on using the U.S. Treasury’s
FedDebt Program for transferring and collecting delinquent debt. This program
uses Cross-Servicing and Treasury Offset to recover debts due to the U.S.
Government. The SOP provides users with instructions and training to access
FedDebt, instructions on due process and determining which debts are not eligible
for reporting to FedDebt, and instructions on recalling debts.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. WBAMC UBO
management did not effectively manage delinquent MSAs. In addition, we
identified internal control weaknesses associated with the oversight process,
installment payments, and patient data collection in accordance with DoD
Instruction 5010.40. We will provide a copy of the report to the senior official
responsible for internal controls in the Department of the Army.




                                                                                       DODIG-2014-112│ 3
Finding




                 Finding
                 William Beaumont Army Medical Center Did
                 Not Effectively Manage Delinquent Medical
                 Service Accounts
                 WBAMC UBO management did not effectively manage delinquent MSAs. As of
                 May 29, 2013, 1,688 of WBAMC MSAs, valued at $857,003, were more than
                 180  days delinquent. We reviewed the 25 highest-dollar delinquent MSAs, valued at
                 $525,209, and found that WBAMC UBO management did not transfer any of the
                 accounts to the U.S. Treasury for collection after the account was delinquent for
                 180 days. Furthermore, WBAMC UBO management did not actively pursue
                 collection for 20 of the delinquent MSAs, valued at $455,775.

                 The large numbers of delinquent MSAs, including the 25 sample items reviewed,
                 existed because WBAMC UBO management did not have a system in place to monitor
                 the delinquent MSAs, prioritize the aging accounts, and notify staff of the MSAs
                 requiring followup. Additionally:

                             •	 WBAMC UBO management stated they were unaware of the MEDCOM
                                 FedDebt guidance to transfer delinquent debt to the U.S. Treasury;

                             •	 WBAMC management did not ensure the collection of complete and accurate
                                 patient information before discharge;

                             •	 WBAMC UBO management allowed patients to make installment
                                 payments not in accordance with DoD regulations; and

                             •	 MEDCOM did not require the use of the wage garnishment3 tool.

                 As a result, WBAMC UBO management missed opportunities to collect $337,7524
                 in delinquent payments due on the highest-dollar accounts. Unless WBAMC UBO
                 management improves collection efforts and takes prompt and aggressive actions
                 to collect the delinquent debt, among the MSAs reviewed and the $331,7945 of
                 other delinquent MSAs, WBAMC UBO will continue to incur rising delinquent
                 balances for future MSAs.

                 	3	
                     The taking of a debtor’s wages to pay a debt.
                 	4	
                     We obtained the universe of delinquent MSAs on May 29, 2013. Throughout our review, we determined WBAMC UBO
                     collected $139,217 on 12 MSAs selected for review. In addition, WBAMC UBO corrected errors in patient records on
                     4 MSAs that resulted in a net reduction of delinquent debt of $38,382, and had 1 MSA that contained $9,858 in services
                     not covered.
                 	5	
                     The outstanding balance of the other 1,663 MSAs not included in our sample.




4 │ DODIG-2014-112
                                                                                                                                             Finding



Management of Delinquent Medical Service Accounts
Needs Improvement
WBAMC UBO management did not transfer 1,688 delinquent accounts to the
U.S. Treasury for collection and did not take aggressive action to perform timely
followup for 20 of the 25 delinquent MSAs we sampled. Public Law 104-134 and
the DoD FMR require agencies to transfer debts that received proper due process6
and are more than 180 days old to the U.S. Treasury for collection. Table 1
illustrates the 20 MSAs reviewed that had no collection efforts for more than
6 months.7

Table 1. Medical Service Accounts Reviewed With No Collection Efforts for 6 Months
or More
                          Months With                                                     Months With
        Account           No Collection         Amount ($)              Account           No Collection          Amount ($)
                             Efforts                                                         Efforts
        373227                    73             $64,952.13              378666                   80              $17,554.13
        422363                   12*             $39,190.03              413261                   28              $17,391.65
        412865                    27             $38,827.93              414195                   30              $17,391.65
        424420                     7             $33,754.80              414745                   14              $15,003.55
        421289                   11*             $32,937.13              410079                   36              $14,454.25
        419556                    19             $27,585.21              423897                     7*            $13,590.05
        385545                    69             $22,600.86              388940                   65              $11,626.23
        412273                     7             $22,563.21              427457                   10              $10,767.48
        422479                     9             $19,391.64              419800                   24               $8,883.40
        414933                    14             $18,629.42              381519                   75               $8,679.96
* Identifies accounts with multiple instances of no collection efforts for 6 months or more. The number in the table identifies
the largest period of no collection effort.


For the 20 accounts listed above, 6 to 73 months elapsed between followup
attempts with either a patient or insurance company. As an example, for
account 385545, the patient was discharged on January 18, 2008, with services
rendered totaling $22,600.86. No action was taken on the account at WBAMC
UBO for approximately 69 months until the debt was transferred to U.S. Treasury.
See Appendix C for a summary of the results for the 25 MSAs reviewed.


	6	
       In the context of Federal debt collection, due process requires a debtor be provided with notice of, and the opportunity to
       dispute, a debt or intended debt collection action.
	 7	
       We used 6 months as the cut-off for timely collection efforts. This would allow time to account for mailings, insurance
       reviews, and other correspondence that may take time.




                                                                                                                                     DODIG-2014-112│ 5
Finding



                 System Needed to Manage and Prioritize Delinquent
                 Medical Service Accounts
                 WBAMC UBO management did not have a system in place to prioritize MSAs or
                 alert clerks when an MSA was due for followup. As new accounts were processed,
                 the system that WBAMC used could not manage or prioritize the aging MSAs
                 within the system to alert the clerks of delinquent accounts requiring attention.
                 Therefore, WBAMC UBO did not take prompt and aggressive action to recover
                 and collect debts owed to DoD and to pursue continuing followup actions, as
                 necessary, to ensure that DoD collects debts owed. Additionally, WBAMC personnel
                 did not accurately identify MSAs to transfer to U.S. Treasury.

                 In March 2014, MEDCOM personnel stated the MSA billing system consisted of
                 three separate aging systems, including spreadsheets and typewriters. The personnel
                 stated that these systems had a limited ability to support followup actions, if at
                 all, and could not keep up with the industry standard. MEDCOM UBO personnel
                 stated a contract was awarded for a new system, but the implementation was
                 not expected until at least September 30, 2014. Without a system or process to
                 notify WBAMC UBO staff of MSAs requiring followup, WBAMC UBO will continue
                 to have delinquent MSAs and risk missing the opportunity to collect on the
                 $669,5468 in delinquent MSAs. We recommended in the first report of this series
                 that the Commander, Brooke Army Medical Center validate that the planned
                 system would prioritize delinquent MSAs and alert the clerks as to which
                 accounts require followup. Therefore, we did not make a similar recommendation
                 to WBAMC in this report.

                 During the audit, UBO management identified all MSAs that were more than 180  days
                 delinquent and started an internal review to ensure aggressive collection efforts
                 have begun. WBAMC management should provide the results of the internal
                 review, planned corrective actions, and collection efforts upon completion of the
                 internal review for the delinquent medical service accounts that remain open.




                 	 8	
                        The total of the outstanding balance on the 1,663 MSAs not included in our sample and the remaining balance owed after
                        collections and corrections on the 25 MSAs reviewed within our sample.




6 │ DODIG-2014-112
                                                                                                                                       Finding



Uniform Business Office Chief Unaware of
U.S. Army Medical Command FedDebt Guidance
The former WBAMC UBO Chief9 stated that he was                                      not aware of the MEDCOM
FedDebt       10
                   SOP guidance to transfer delinquent debt to the U.S Treasury for
collection. However, during further discussions with the former WBAMC UBO Chief,
he said that he previously provided his staff with the MEDCOM FedDebt SOP
guidance. WBAMC staff could not recall when or if the former chief provided
the guidance.

                                       The former WBAMC UBO Chief also inappropriately
            The                             transferred five delinquent MSAs to the U.S. Treasury
          former                              contrary        to    MEDCOM’s           FedDebt        SOP      guidance.
    WBAMC UBO Chief
   also inappropriately                         The MEDCOM FedDebt SOP states that debts not
transferred five delinquent                     eligible to be entered into FedDebt include debts
   MSAs to U.S. Treasury                        for deceased debtors. The MEDCOM FedDebt SOP
  contrary to MEDCOM’s
                                               also states that debtors shall be afforded (provided)
       FedDebt SOP
         guidance.                           due process before entering any delinquent debts
                                          into FedDebt. Table 2 illustrates the five MSAs reviewed
                                     that      were       inappropriately           transferred         to     Treasury.

Table 2. Medical Service Accounts Reviewed That Were Transferred Inappropriately
         Account                Amount ($)                                 Inappropriate Reason
         422363                 $39,190.03                                    Deceased Patient
         412273                 $22,563.21                                    Deceased Patient
         429597                 $19,456.82                                    Deceased Patient
         410079                 $14,454.25                                   Lacked Due Process
         381519                   $8,679.96                                  Lacked Due Process



Additionally, WBAMC UBO management did not transfer 15 of the 25 MSAs,11 to
the U.S. Treasury as required by the MEDCOM FedDebt SOP guidance. WBAMC
management should provide annual training to the WBAMC UBO management


	9	
       In January 2014, WBAMC personnel informed the audit team the UBO Chief in place at the time of our site visit was
       replaced by a new UBO Chief.
	10	
       FedDebt is a Treasury online comprehensive debt management system that allows the UBO staff to directly upload
       delinquent claims for debts as low as $25
	11	
       Five MSAs from the sample, valued at $172,318, were delinquent as of May 29, 2013, when the sample was pulled. During
       the audit, WBAMC UBO collected $98,846 for these MSAs. Based on the evidence provided during the audit, we consider
       these accounts paid in full.




                                                                                                                               DODIG-2014-112│ 7
Finding



                 and staff so they are aware of and comply with all guidance governing the transfer
                 and management of delinquent debt. WBAMC management should also recall
                 delinquent debts that were inappropriately transferred to U.S. Treasury and start
                 due process if needed or transfer to MEDCOM as appropriate.


                 Patient Data Needed Before Discharge
                 WBAMC management did not enforce existing guidance requiring the collection
                 of complete and accurate data from patients before they were discharged from
                 the treatment facility. DoD 6010.15-M requires WBAMC to collect information on
                 patients’ other health insurance (if any), credit card number, and other applicable
                 means of reimbursement for healthcare services immediately upon outpatient visit
                 or inpatient admission.

                 WBAMC UBO and Patient Administration Division (PAD) personnel did not always
                 enter complete and accurate patient information before discharge. Patient data
                 collection at WBAMC occurs at multiple points from patient admission to patient
                 discharge. The WBAMC PAD Chief acknowledged a breakdown in the collection
                 of   accurate   information   by   the   WBAMC   PAD   Medical   Support    Assistants.

                 For 4 of the 25 delinquent MSAs, WBAMC PAD Medical Support Assistants entered
                 the wrong information when admitting patients, resulting in incorrect patient
                 category codes. For account 412865, the patient was a
                 German active duty soldier and was mistakenly coded as                  For
                 a civilian emergency by a medical support assistant,                4 of the 25
                 resulting in a charge of $38,827.93 when the patient             delinquent MSAs,
                                                                                WBAMC PAD Medical
                 was discharged. However, in accordance with an
                                                                             Support Assistants entered
                 agreement between the Department of Defense                   the wrong information
                 and the Ministry of Defense of the Federal Republic          when admitting patients,
                 of Germany, the soldier should have only been                  resulting in incorrect
                                                                                  patient category
                 charged $46.20. It was not until the incorrect                         codes.
                 code was identified 27 months later that a revised
                 invoice was provided to the patient, who paid the balance
                 within 11 days. Table 3 shows the original incorrect balance
                 and the amount after the coding was corrected.




8 │ DODIG-2014-112
                                                                                                                                 Finding



Table 3. Medical Service Accounts Reviewed That Were Coded Incorrectly
        Account              Incorrect Coded Charge Amount ($)                 Correct Coded Charge Amount ($)
         412865                              $38,827.93                                             $46.20
         413261                              $17,391.65                                             $46.20
         414195                              $17,391.65                                             $46.20
         427457                              $10,767.48                                        $10,767.48*
* WBAMC originally coded this claim as a civilian emergency and not a Veterans Affairs patient. After WBAMC properly
coded this MSA, it was no longer considered a civilian emergency and the debt was properly transferred to the Veterans
Affairs for processing.




As a result, WBAMC UBO management missed opportunities to improve the
collection process and mistakenly over-billed patients. WBAMC management should
establish procedures to validate that staff collect complete demographic and billing
information before patient discharge.


Installment Payments Contrary to DoD Regulation
Contrary to DoD Regulation, WBAMC UBO management allowed patients to make
installment payments that were not in accordance with DoD policy, for services
                              rendered for four delinquent MSAs, valued at $43,686. The
                                        DoD FMR requires the debt collection office to base
                                             decisions to accept installment payments on a review
         WBAMC UBO                              of the debtor’s financial statements or verification
     management allowed                           of the debtor’s financial position. In addition
 patients to make installment                      to the financial position requirements, debtors
  payments that were not in
 accordance with DoD policy,                       must pay at least $50 each month and must
   for services rendered for                       pay off the debt within 3 years or less, except
    four delinquent MSAs,                          when a debtor can prove financial hardship
      valued at $43,686.
                                                 or other reasonable causes exist. Table 4 shows
                                              the original balance, payment plans, and auditor
                                         determined payoff period accepted by WBAMC UBO.




                                                                                                                         DODIG-2014-112│ 9
Finding



                 Table 4. Medical Service Accounts With Noncomplying Installment Plans
                                                         Installment Amount        Estimated Payoff
                      Account     Amount Patient Owes         (monthly)                (in Years)*
                      423897          $13,590.05               $50.00                    22
                      429807          $13,239.33               $50.00                    22
                      414745           $6,982.04               $50.00                    11
                      409111           $9,874.34              $100.00                     8
                  *As of November 28, 2013



                 Additionally, large lapses in time occurred between payments. For example, for
                 account 423897, the patient was discharged on March 30, 2012, and the first payment
                 was not received until November 13, 2012. Another 5 months passed before the
                 second payment was received on April 24, 2013. We determined the estimated
                 payoff date as if the patient made monthly payments on time of $50.00.

                 WBAMC personnel did not have signed payment plans from the debtors for 2 of the
                 4 delinquent MSAs in the account file showing that WBAMC entered into a legally
                 enforceable agreement with the debtors. These debtors could have been experiencing
                 financial hardship that would prevent WBAMC from collecting the full original
                 balance. However, WBAMC UBO personnel did not complete verification of the
                 debtors’ financial position nor establish other reasonable causes to support
                 payment plans that deviated from the standard terms required by DoD regulation.
                 WBAMC UBO management should review, research, and determine whether
                 other delinquent MSAs on installment plans comply with DoD regulation.


                 FedDebt Administrative Wage Garnishment Tool
                 MEDCOM did not allow the use of the FedDebt administrative wage garnishment
                 tool, limiting FedDebt personnel in collecting delinquent debt on behalf of
                 WBAMC. FedDebt is an online comprehensive debt management system that allows
                 the UBO staff to directly upload delinquent claims for debts as low as $25. The
                 system provides real-time visibility into the debt collection efforts and enables
                 military MTF personnel to expedite processing. FedDebt regularly uses three
                 tools to collect debts: 1.) payment agreements; 2.) administrative wage garnishment;
                 and 3.) U.S. Treasury offset. Administrative wage garnishment is a debt collection
                 process that allows a Federal agency to order a non-Federal employer to withhold up to




10 │ DODIG-2014-112
                                                                                                  Finding



15 percent of an employee’s disposable income (money remaining after taxes)
to pay a nontax delinquent debt owed to the agency. Upon implementation of
FedDebt, MEDCOM management decided not to use wage garnishment at the
military MTFs. MEDCOM management did not believe the funds collected through
administrative wage garnishment would be worth the administrative hurdles
they believed were necessary to implement the wage garnishment tool. For
example, MEDCOM management believed they had to provide debtor employment
information to FedDebt. However, FedDebt handles the research necessary to
begin administrative wage garnishment. We did not make a recommendation to
MEDCOM in this report because we recommended in the first report of this series
that MEDCOM implement the FedDebt administrative wage garnishment tool
within Army military MTFs.


Management Corrective Actions Taken
During the course of the audit, WBAMC UBO and PAD management took the
following actions, as they related to the 25 MSAs reviewed, to collect on existing debt:

        •	 Reviewed delinquent MSAs with no prompt and aggressive actions taken.

                  {{   If due process was met, the account was transferred to FedDebt.

                  {{   If due process was not met, then due process was initiated.

                  {{   If patient defaulted on a payment agreement, account was
                       transferred to FedDebt.

        •	 Corrected the four MSAs with miscoded patient category codes.

In addition to the 25 MSAs reviewed, WBAMC UBO and PAD management took the
following actions on processes related to delinquent MSAs:

        •	 Completed a process review and workflow analysis focusing on due
           process and managing MSAs less than 180 days delinquent.

        •	 Developed tracking and aging process for all accounts less than
           180 days delinquent.

        •	 Identified all MSAs more than 180 days delinquent and started an
           internal review to ensure aggressive collection efforts have begun.




                                                                                         DODIG-2014-112│ 11
Finding



                           •	 Revised local policies so the WBAMC Chief of Resource Management
                             Division is now required to:

                                    {{   Transfer delinquent accounts to FedDebt;

                                    {{   Establish all payment agreements;

                                    {{   Review monthly visibility reports, which identify MSAs that
                                         are under 180 days delinquent; and

                                    {{   Resolve all MSAs greater than 180 days delinquent.

                           •	 Retrained MSA clerks to ensure proper patient category coding.


                 Conclusion
                 WBAMC UBO management missed opportunities to maximize collections for
                 $337,752 worth of delinquent payments due on the 25 highest-dollar MSAs.
                 These funds could have been applied to other valid requirements such as
                 administrative, operating, and equipment costs; readiness training; or trauma
                 consortium activities. Unless WBAMC improves collection procedures and takes
                 prompt and aggressive action to pursue and attempt collection of the delinquent
                 debt among the MSAs reviewed, and the $331,794 worth of other delinquent
                 MSAs, WBAMC UBO will continue to incur rising delinquent balances for future
                 MSAs. See Appendix D for details on potential monetary benefits.


                 Recommendations, Management Comments, and
                 Our Response
                 We recommend that the Commander, William Beaumont Army Medical Center:


                 Recommendation 1
                 Provide    the   results    of   the   internal   review,   planned   corrective   actions,
                 and collection efforts upon completion of the internal review for the remaining
                 open delinquent medical service accounts.




12 │ DODIG-2014-112
                                                                                           Finding



U.S. Army Medical Command Comments
The Chief of Staff, MEDCOM, responding for the Commander, WBAMC, agreed,
stating that WBAMC completed the internal review and instituted an aging system
to track and manage MSAs. He stated that these improvements resulted in collections
of $173,156.31 and transfers of $141,838.78. The Chief of Staff also stated that
WBAMC made substantial progress over the last 6 months and will continue these
efforts in FY 2015; however, WBAMC requires an electronic billing solution to
sustain and accelerate collection efforts.

Our Response
Comments from the Chief of Staff addressed all specifics of the recommendation,
and no further comments are required.

Recommendation 2
Provide annual training to Uniform Business Office staff so they are aware
of and comply with all guidance governing the transfer and management of
delinquent debt.


U.S. Army Medical Command Comments
The Chief of Staff, MEDCOM, responding for the Commander, WBAMC, agreed,
stating that WBAMC UBO leadership and staff have been trained on the expectations
and policies governing the transfer and management of delinquent debts.
In addition, he stated that continued training will focus on due process and
properly managing accounts less than 180 days to prevent delinquency. Finally,
the Chief of Staff stated that the WBAMC UBO Chief will perform annual training
sessions with the UBO and PAD personnel.

Our Response
Comments from the Chief of Staff addressed all specifics of the recommendation,
and no further comments are required.




                                                                                  DODIG-2014-112│ 13
Finding



                 Recommendation 3
                 Recall   delinquent   debts      that   were   inappropriately   transferred   to   U.S.
                 Treasury and start due process if needed or transfer to the U.S. Army Medical
                 Command as appropriate.


                 U.S. Army Medical Command Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, WBAMC, agreed, stating
                 that all delinquent accounts identified that were inappropriately transferred to
                 U.S. Treasury have been recalled and due process has begun as needed or accounts
                 transferred to MEDCOM as appropriate.

                 Our Response
                 Comments from the Chief of Staff addressed all specifics of the recommendation,
                 and no further comments are required.

                 Recommendation 4
                 Establish procedures to validate that staff collect accurate and complete
                 demographic and billing patient information before patient discharge.


                 U.S. Army Medical Command Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, WBAMC, agreed,
                 stating that WBAMC UBO and PAD staff were reoriented and trained on command
                 policies, which included procedures to validate and collect accurate and complete
                 demographic and billing patient information before patient discharge. The Chief
                 of Staff also stated that training will be conducted quarterly for the MSA offices
                 and monthly for the UBO staff.


                 Our Response
                 Comments from the Chief of Staff addressed all specifics of the recommendation,
                 and no further comments are required.




14 │ DODIG-2014-112
                                                                                           Finding



Recommendation 5
Review, research, and determine whether other repayment installment plans
arranged by the Uniform Business Office are sufficient or in need of revisions
to comply with DoD Financial Management Regulation, volume 5, chapter 28.


U.S. Army Medical Command Comments
The Chief of Staff, MEDCOM, responding for the Commander, WBAMC, agreed,
stating that the WBAMC Staff Judge Advocate reviewed and revised the payment
installment plans to ensure compliance with DOD Financial Management Regulation.
The Chief of Staff also stated that uncollected Medicare and Medicaid claims
will be transferred to FedDebt once due process is complete.

Our Response
Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
recommendation, and no further comments are required.


Management Comments on the Internal Controls
and Our Response
U.S. Army Medical Command Comments
The Chief of Staff, MEDCOM, acknowledged our identification of internal control
weaknesses and stated that actions taken in response to the recommendations
should correct these weaknesses.

Our Response
Comments from the Chief of Staff, U.S. Army MEDCOM were responsive and no
further comments are required.


Management Comments on Potential Monetary
Benefits and Our Response
U.S. Army Medical Command Comments
The Chief of Staff, MEDCOM, disagreed with the potential monetary benefits
identified, stating the $669,546 identified is overstated as it is the full billing
amount. The Chief of Staff indicated the 1,663 MSAs that were not included in the
sample may have had collections or corrections that would have reduced the




                                                                                  DODIG-2014-112│ 15
Finding



                 outstanding balance. Additionally, he indicated offset costs, to include direct or
                 indirect costs incurred in implementing the action, should be considered in
                 computing the potential collections.

                 The Chief of Staff stated that in the past year, MEDCOM transferred more than
                 $50 million to the U.S. Treasury and collected about $2.25 million, or about 5 percent.
                 He stated that the 5-percent rate was more reasonable to calculate the monetary
                 benefits; however, he noted that corrective action implemented by WBAMC has
                 already exceeded this anticipated return.

                 Our Response
                 The full billing amount or original charge for the 1,688 MSAs more than 180 days
                 delinquent totaled $857,003. The $669,546 in potential monetary benefits was
                 derived from the outstanding balance on the universe of 1,688 MSAs, based on the
                 data provided by MEDCOM on May 29, 2013. Although MEDCOM has only seen
                 a 5-percent return of monetary benefits from the FedDebt program, until the
                 U.S. Treasury compromises the debt, it is considered potentially collectible.
                 There are potentially hundreds of delinquent MSAs that WBAMC could transfer
                 to FedDebt that may increase the collection percentage further. In addition,
                 MEDCOM appears to have only included the amount collected from the Treasury
                 FedDebt program, which is not representative of all MSA debt. The potential
                 monetary benefits must include collections from all available methods, including
                 insurance, Medicaid, and patient payments. By reviewing and researching the
                 claims, WBAMC has already collected and exceeded the anticipated return of
                 5 percent through proper due process and management of the MSAs. Therefore,
                 we do not agree that 5 percent of the outstanding balance is a more reasonable
                 basis for calculating potential monetary benefits.

                 We requested in the first report of this series that the Chief of Staff, MEDCOM,
                 provide support for the collection sources that comprise the 5-percent collection
                 rate, including proposed offsets, and reconsider his position on the potential
                 monetary benefits. We also request that the Chief of Staff reconsider his position
                 on the potential monetary benefits included in this report.




16 │ DODIG-2014-112
                                                                                      Appendixes




Appendix A
Scope and Methodology
We conducted work used as a basis for this audit from July 2013 through
November     2013      under    DoD   IG   Project   No.   D2013-D000CL-0182.000.
In November 2013, we decided to issue multiple reports as a result of those
efforts. From November 2013 through January 2014, we primarily performed
work on another report in this series. In January 2014, we announced DoD IG
Project No. D2014-D000CL-0089.000 specifically for the audit of delinquent
MSAs at WBAMC and conducted this performance audit through July 2014.
We completed both projects in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient and appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.


Review of Documentation and Interviews
We interviewed personnel from the Office of the Under Secretary of Defense
(Comptroller), Defense Finance and Accounting Services Debt Collection Management
Office, MEDCOM, WBAMC, and the U.S. Treasury Financial Management Services
to obtain information and source documentation on delinquent MSA debt and
collection efforts at WBAMC. During the site visits to WBAMC, in El Paso, Texas,
and MEDCOM, in San Antonio, Texas, we observed daily procedures performed
by personnel and examined key documents related to the audit objective.

We obtained, reviewed, and analyzed Federal, DoD, Army, and local guidance, related
to delinquent MSA debt and collection efforts at WBAMC. We focused our review on:

        •	 Public Law 104-134, Section 31001, “Debt Collection Improvement Act
           of 1996;”

        •	 DoD Financial Management Regulation, volume 5, chapter 28, “General
           Provisions of Indebtedness,” November 2012;




                                                                                  DODIG-2014-112│ 17
Appendixes



                         •	 DoD 6010.15-M “Military Treatment Facility Uniform Business Office
                            Manual,” November 2006;

                         •	 U.S. Army Medical Command Standard Operating Procedures on Medical
                            Services Account Receivable; and

                         •	 U.S. Army Medical Command FedDebt Program Standard Operating
                            Procedures, May 2013.

                 Our review included WBAMC MSAs that were open for more than 180 days from
                 August 2001 through October 2012. Those MSAs represented a universe of
                 1,688 accounts, valued at $857,003, that were more than 180 days old. According
                 to Department of Army Form 3154, payment of the bill is due upon receipt.
                 If payment is not received for the debt within 30 days of hospital discharge or
                 outpatient date of service, the account is subject to referral to higher authority
                 for collection action. We considered these MSAs delinquent because the balance
                 owed to WBAMC was not paid in full, which was after 180 days from date of
                 discharge, by the time we received the data from MEDCOM.

                 We then nonstatistically selected the top 25 MSAs based on highest outstanding
                 balances, valued at $525,209. For the 25 MSAs reviewed, we identified the current
                 state of the delinquent MSA debt at WBAMC during our site visit in November 2013.
                 We continued monitoring the status of the collection and correction errors for the
                 MSAs throughout our review. We compared the MSA to applicable Federal, DoD,
                 and local Army guidance to determine compliance related to collection efforts.
                 We did not review each claim for complete compliance with Treasury Regulations
                 regarding whether the MSA was eligible for transfer to the Treasury. In cases
                 where MSAs had been transferred to FedDebt during our review, we compared
                 the MSA documentation to the MEDCOM FedDebt SOP to determine whether the
                 MSA should have been transferred or was inappropriately transferred to FedDebt.


                 Use of Computer-Processed Data
                 We relied on computer-processed data to support our findings and conclusions.
                 Specifically, we relied on managements’ summary level delinquent MSA data from
                 the Composite Health Care System to select 25 delinquent MSAs with the highest
                 outstanding balance.

                 To assess the reliability of the outstanding balances we compared the amount
                 owed for all 25 MSAs to the medical procedure documentation, patient information,




18 │ DODIG-2014-112
                                                                                            Appendixes




hospital generated bills, staff notes and documentation on attempted collections,
and delinquent letters and other types of patient contact for collection. We found
no errors with those balances. Based on this information, we determined that
the data were sufficiently reliable for the purposes of this report.


Use of Technical Assistance
The Quantitative Methods Division reviewed audit documents and advised us on the
validity of the nonstatistical sample selected.


Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG),
Army Audit Agency and Air Force Audit Agency issued five reports discussing
difficulty in obtaining reimbursements for services rendered. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/pubs/index.cfm. Unrestricted
Army reports can be accessed over the Internet at https://www.aaa.army.mil/.
Air Force Audit Agency reports can be accessed over the Internet at
https://www.efoia.af.mil/palMain.aspx by those filling out the Freedom of
Information Act form.


DoD IG
DODIG-2014-101, “Delinquent Medical Service Accounts at Brooke Army Medical
Center Need Additional Management Oversight,” August 13, 2014


Army
A-2012-0032-IEM, “Follow-up Audit of Trauma Services Cooperative Agreement
Brooke Army Medical Center,” December 20, 2011

A-2009-0061-ALE,      “Billing   Operations   U.S.   Army    Europe    Regional   Medical
Command,” March 31, 2009


Air Force
F2012-0001-FB3000, “Services Medical Activity – Air Force: Out of Service Debt,”
October 3, 2011

F2011-0039-FCW000, “Services Medical Activity – Air Force Accounts Receivable
Out-of-Service Debt 88th Air Base Wing Wright-Patterson AFB OH,” July 19, 2011



                                                                                        DODIG-2014-112│ 19
Appendixes




                 Appendix B
                 Potential Breach of Personally Identifiable Information
                 and Protected Health Information
                 During the audit, WBAMC UBO staff alerted us that 3 of the 25 MSAs could
                 not be located at the storage warehouse and the files were recreated for audit
                 purposes. As a result, the audit team requested a walk-through of the warehouse.
                 WBAMC UBO staff noted the warehouse was not actually at the hospital but in
                 another building located on Fort Bliss, Texas.

                 Upon arrival at the warehouse, WBAMC personnel could not identify where the
                 UBO claim files were stored. WBAMC UBO and warehouse staff eventually located
                 the files on pallets outside the secure area.

                 UBO claimed that the files contained medical, protected health, and personally
                 identifiable information. OMB and DoD guidance requires agencies to establish
                 appropriate administrative, technical, and physical safeguards to insure the security
                 and confidentiality of records containing controlled unclassified information.
                 The UBO claim files were outside the secure area and, therefore, unprotected
                 from unauthorized access and disclosure. See Figure 1 for photos of the UBO
                 claim files.




                      Figure 1. Medical Files Stored in Unsecured Area
                      Source: DoD OIG




20 │ DODIG-2014-112
                                                                                      Appendixes



After the audit team’s site visit, WBAMC UBO and PAD personnel placed all the
UBO claim files in a secure area, as required by OMB and DoD guidance. Please refer
to Figure 2 for photos taken by WBAMC staff to show where the information
now resides.




 Figure 2. FollowUp Showed Medical Files Stored in Secured Area
 Source: William Beaumont Army Medical Center




                                                                                  DODIG-2014-112│ 21
Appendixes




                 Appendix C
                 Results of the 25 Medical Service Accounts Reviewed1
                                                                          Compliance          Compliance
                                                                           With DoD            With DoD
                                                       Compliance           FMR V5              FMR V5
                                     Universe             with                                                  Claim Missing
                      Account                                                Ch 28               Ch 28
                                     Balance           Public Law                                               in Warehouse
                                                                           Regarding           Regarding
                                                        104-1342          Aggressive           Payment
                                                                          Collection3            Plans4
                       373227        $64,952.13             No                 No                 N/A                 No
                       422363        $39,190.03             No                 No                 N/A                 No
                       412865        $38,827.93             No                 No                 N/A                 No
                       424420        $33,754.80             No                 No                 N/A                 No
                       421289        $32,937.13             No                 No                 N/A                 No
                       419556        $27,585.21             No                 No                 N/A                 No
                       385545        $22,600.86             No                 No                 N/A                 No
                       412273        $22,563.21             No                 No                 N/A                 No
                       429597        $19,456.82             No                 Yes                N/A                 No
                       422479        $19,391.64             No                 No                 N/A                 No
                       414933   5
                                     $18,629.42             No                 No                 N/A                 No
                       414745        $15,003.55             No                 No                  No                 No
                       429619        $17,867.57             No                 Yes                N/A                 No
                       378666        $17,554.13             No                 No                 N/A                 Yes
                       413261        $17,391.65             No                 No                 N/A                 No
                       414195        $17,391.65             No                 No                 N/A                 No
                       410079        $14,454.25             No                 No                 N/A                 Yes
                       423897        $13,590.05             No                 No                  No                 No
                       429807        $13,239.33             No                 Yes                 No                 No
                       388940        $11,626.23             No                 No                 N/A                 No
                       427457        $10,767.48             No                 No                 N/A                 No
                       418149        $16,837.42             No                 Yes                N/A                 No
                       419800         $8,883.40             No                 No                 N/A                 No
                       409111         $9,874.34             No                 Yes                 No                 No
                       381519         $8,679.96             No                 No                 N/A                 Yes
                 	1	
                     Chart is as of time of review during the site visit, November 19, 2013, chart does not reflect management
                     corrective actions after audit team’s review
                 	2	
                     Was the debt transferred to the U.S. Treasury after a delinquency of 180 days
                 	3	
                     Was there evidence provided showing WBAMC UBO management took prompt and aggressive action or
                     performed timely followup on the delinquent MSA
                 	4	
                     Was evidence provided showing patient payments plans set up correctly
                 	5	
                     Claim 414933 and Claim 414745 are for the same patient.




22 │ DODIG-2014-112
                                                                                                                   Appendixes




Appendix D
Potential Monetary Benefits Table
                                                                                Amount of
 Recommendation                              Type of Benefit*                                     Account
                                                                                 Benefit
                           Economy and Efficiency. WBAMC collection
                           of delinquent debts for services rendered           Total Benefit,   97 0130 1881
            1              could be used for administrative, operating,          $669,546        (DHP O&M)
                           and equipment costs; readiness training; or
                           trauma consortium activities.
*Potential monetary benefits are funds put to better use or questioned costs


Legend
DHP O&M         Defense Health Program Operations and Maintenance
WBAMC           William Beaumont Army Medical Center




                                                                                                               DODIG-2014-112│ 23
Appendixes




                 Management Comments
                 U.S. Army Medical Command




24 │ DODIG-2014-112
                                                                                                 Management Comments



U.S. Army Medical Command (cont’d)


                         U.S. Army Medical Command (MEDCOM) and
                            Office of the Surgeon General (OTSG)

                            Comments on DODIG Draft Report
      Delinquent Medical Service Accounts at William Beaumont Army Medical Center
                         Need Additional Management Oversight
                          (Project No. D2013-D000CL-0182.000)


     RECOMMENDATION 1: Provide the results of the internal review of MSAs over 180
     days delinquent, planned corrective actions, and collection efforts upon completion of
     the internal review for the remaining open delinquent medical service accounts.

     RESPONSE: Concur. William Beaumont Army Medical Center (WBAMC) completed
     the internal review and instituted an aging system to track and manage medical service
     accounts. The system will ensure proper aging of all new accounts in FY14. In
     addition, the Chief, Resource Management Division (RMD) reviews and approves all
     FedDebt submissions to ensure due process. The RMD Chief receives monthly
     30/60/90/120-day visibility reports, in addition to accounts greater than 180 days, to
     ensure monthly reconciliation and resolution of delinquent accounts. These
     improvements have resulted in collections of $173,156.31 and transfers of $141,838.78,
     a total reduction of $314,995.

     WBAMC requires an electronic billing solution to sustain collection efforts.
     Implementation of the Army Billing and Collection Utilization Solution (ABACUS) or an
     alternative electronic billing solution would optimize Uniform Business Operations
     between Medical Service aged accounts and Veteran Affairs billing. Such systems
     provide an automated tracking log to better track and manage aged accounts. In
     addition to streamlining processes, it will allow WBAMC to internally shift workload and
     remain current on both MSA aged accounts and VA billing. WBAMC has made
     substantial progress over the last 6 months and will continue these efforts in FY 15;
     however, an electronic billing solution will accelerate these efforts.


     RECOMMENDATION 2: Provide annual training to Uniform Business Office (UBO)
     staff so they are aware of and comply with all guidance governing the transfer and
     management of delinquent debt.

     RESPONSE: Concur. UBO leadership and staff have been trained on the expectations
     and policies governing the transfer and management of delinquent debts. Continued
     training focuses on due process and properly managing accounts less than 180 days to
     prevent delinquency. In addition, MEDCOM UBO staff have conducted online training
     sessions with WBAMC UBO staff. The WBAMC UBO Chief will perform annual training
     sessions with UBO and Patient Administration Division (PAD) staff elements.




                                                                                          Encl




                                                                                                          Project No. │ 25
Management Comments



                   U.S. Army Medical Command (cont’d)


                        RECOMMENDATION 3: Recall delinquent debts that were inappropriately transferred
                        to U.S. Treasury and start due process if needed or transfer to the MEDCOM as
                        appropriate.

                        RESPONSE: Concur. All delinquent accounts identified by the DODIG team that were
                        inappropriately transferred to U.S. Treasury have been recalled and due process has
                        begun as needed or accounts transferred to MEDCOM as appropriate. When patients
                        defaulted on a payment agreement, the account was transferred to FedDebt.
                        Delinquent debts identified by DODIG for deceased patients were recalled and will be
                        resolved.

                        RECOMMENDATION 4: Establish procedures to validate that staff collect accurate and
                        complete demographic and billing patient information before patient discharge.

                        RESPONSE: Concur. WBAMC UBO and PAD staff were reoriented on Command
                        Policy No. 49 (Front Desk Operational Procedures), dated 24 October 2012, and the
                        MSA Handbook, dated 21 March 2012. Emergency room personnel have been
                        retrained on verification of eligibility procedures in AR 40-400, Chapter 2-2 and Eligibility
                        Verification for Military Installations for Identification Card Issuance Activity. Key UBO
                        staff elements were educated on AR 600-8-14, delineating the various types of
                        Uniformed Services Identification cards. In addition, face-to-face training will be
                        conducted quarterly for MSA Offices, and monthly for UBO staff. Training will include
                        procedures to validate and collect accurate and complete patient demographic
                        information; other health insurance data; credit card information or other means of
                        reimbursement; and identify the correct patient category code.

                        RECOMMENDATION 5: Review, research, and determine whether other repayment
                        installment plans arranged by the UBO are sufficient or in need of revisions to comply
                        with DoD Financial Management Regulation, volume 5, chapter 28.

                        RESPONSE: Concur. Payment installment plans were reviewed by the WBAMC Staff
                        Judge Advocate Office and agreements revised to ensure compliance with the DOD
                        Financial Management Regulation. The Chief, RMD has sole responsibility to authorize
                        payment plans, and delinquent medical service accounts with completed due process
                        will be transferred to the Department of Treasury for further action. In addition, all
                        uncollected Medicare/Medicaid claims will be transferred to FedDebt once due process
                        is complete.


                        COMMENTS ON POTENTIAL MONETARY BENEFITS: MEDCOM non-concurs with
                        the potential monetary benefits outlined in Appendix D.

                        The amount of stated potential monetary benefits, $669,546, is the total outstanding
                        balance on the 1,663 MSAs not included in DODIG’s sample and the remaining balance
                        owed after collections and corrections on the 25 MSAs reviewed within their sample.




                                                                     2




26 │ Project No.
                                                                                                     Management Comments



U.S. Army Medical Command (cont’d)


     We believe this amount is overstated. Per DoDM 7600.07-M, DoD Audit Manual,
     February 13, 2009, benefits should be computed in a reasonable manner and should
     consider all offset costs. Offset costs include all direct or indirect costs that would be
     incurred in implementing the action that would result in the monetary benefit.

     In accordance with Generally Accepted Accounting Principles, accounts receivable
     should be recorded and reported at realizable value through the use of an Allowance
     account for bad debt write-offs. The probability of collection for these aged delinquent
     debts is extremely low. Over the past year, MEDCOM has transferred more than $50
     million to the U.S. Treasury and received collections of about $2.25 million, or about
     5 percent. This rate provides a more reasonable basis for calculating monetary
     benefits, and as noted, corrective action implemented by WBAMC has already
     exceeded this anticipated return.


     COMMENTS ON INTERNAL CONTROL WEAKNESSES: MEDCOM acknowledges
     DODIG's identification of internal control weaknesses as stated on page 3 of the draft
     report, and the intent to provide a copy of the report to the senior official responsible for
     internal controls in the Department of the Army. Actions taken in response to the
     recommendations, as outlined above, should correct these weaknesses.




                                                   3




                                                                                                              Project No. │ 27
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      DoD FMR DoD Financial Management Regulation
                      MEDCOM U.S. Army Medical Command
                          MSA Medical Service Account
                          MTF Medical Treatment Facility
                          PAD Patient Administration Division
                          SOP Standard Operating Procedure
                          UBO Uniform Business Office
                       WBAMC William Beaumont Army Medical Center




28 │ DODIG-2014-112
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
